SUPREME COURT OF THE UNITED STATES
No.
X

PATRICIA RODRIGUEZ
Petitioner,
v.
LPP MORTGAGE LTD., LP,
Respondent.
X

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 2,687 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.

Executed on August 26, 2019

Mariana

lovsfci

Sworn, to and subscribed before me
this 26\h day of August, 2019.

Elias Melendez
Notary Punlic State of New York
No. 24-4799661
Qualified in Kings County
Commission Expires Aug. 31, 2021
#289956

received
AUG 2 8 2019
IffiUcougS'

